  Federal Labor Relations Authority
  OFFICE OF INSPECTOR GENERAL




49th Semiannual Report to Congress
              October 1, 2012 – March 31, 2013




              Federal Labor Relations Authority
     1400 K Street N.W., Suite 250, Washington, DC 20424
                                                     49th Semiannual Report to Congress | i



TABLE OF CONTENTS

Executive Summary                                                                       1

Federal Labor Relations Authority Overview                                              2

 Mission                                                                                2
 Organization                                                                           2

Office of Inspector General                                                             4

Office of Inspector General Activities                                                  5

 Audits and Evaluations                                                                 5
 Investigations                                                                         7
 Other Activities                                                                       8

Reporting Requirements of the Inspector General Act of 1978, as Amended                10

First Half of FY 2013 Freedom of Information Act Requests                              11

TABLE I – Summary of Audit Reports with Corrective Actions Outstanding for More Than
1 Year                                                                               12

TABLE II – Listing of Audit Reports Issued                                             13

TABLE III – Reports with Questioned Costs                                              14

TABLE IV – Recommendations that Funds Be Put to Better Use                             15

APPENDIX A - Acronyms and Abbreviations                                                16

APPENDIX B - Definitions of Terms Used                                                 17




                                                            October 1, 2012 – March 31, 2013
                                                             49th Semiannual Report to Congress | 1




Executive Summary
This Semiannual Report, submitted pursuant to Section 5 of the Inspector General Act of 1978, as
amended, summarizes the major activities and accomplishments of the Federal Labor Relations
Authority (FLRA) Office of Inspector General (OIG) for the period October 1, 2012 to March 31, 2013.
The most significant activities of the OIG during the first half of Fiscal Year (FY) 2013 are noted below.
Additional details pertaining to each activity can be found in subsequent sections of this report.

During this reporting period, the OIG issued three reports, the annual Financial Statement Audit of the
Federal Labor Relations Authority for Fiscal Year 2012 (AR-13-01); an Evaluation of the Federal Labor
Relations Authority Compliance with the Federal Information Security Management Act for Fiscal
Year 2012 (ER-13-01); and the Federal Labor Relations Authority’s Compliance with the Improper
Payments Elimination and Recovery Act of 2010 (ER-13-02).

The OIG contracted with Dembo, Jones, Healy, Pennington & Marshall, P.C. (DJHPM) to audit the
FLRA Financial Statements for FY 2012. DJHPM expressed an unqualified opinion. Also, the OIG
issued a Management Letter (AR-13-02) in connection with the financial statement audit.

In addition, the OIG issued an evaluation report on the FLRA’s compliance with the Federal
Information Security Management Act. The evaluation revealed that FLRA has taken steps to
improve the information security program by closing 5 out of the 12 prior year issues. This year’s
testing resulted in no new findings.

The OIG determined that the FLRA is compliant with the Improper Payments Elimination and
Recovery Act of 2010 (ER-13-02) and applicable guidance.

The OIG issued the most serious management and performance challenges facing the FLRA.

The FLRA Inspector General received 50 complaints and 2 Freedom of Information Act requests in FY
2013. Of the 50 complaints received, the OIG resolved 36 of the complaints, referred 5 to other OIGs,
and forwarded 9 to other FLRA offices.




                                                                    October 1, 2012 – March 31, 2013
                                                             49th Semiannual Report to Congress | 2




Federal Labor Relations Authority Overview
Mission
The mission of the Federal Labor Relations Authority (FLRA) is to carry out the five primary statutory
responsibilities as efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Federal Service Labor-Management Relations Statute (the Statute).
Under the Statute, the primary responsibilities (type of cases) of the FLRA include:

       (1)   Determining the appropriateness of units for labor organization representation (REP);
       (2)   Adjudicating exceptions to arbitrator’s awards (ARB);
       (3)   Resolving complaints of unfair labor practices (ULP);
       (4)   Resolving bargaining impasses; and
       (5)   Resolving issues relating to the duty to bargain (NEG).



Organization
The FLRA conducts it case processing activities through:

      The Office of the General Counsel (OGC) of the Authority – led by the General Counsel, who is
       appointed by the President and confirmed by the Senate – which, through regional offices, is
       the entry point for ULP charges filed with the FLRA. The OGC also processes REP petitions
       filed with the FLRA and decides appeals of Regional Directors’ decisions dismissing ULP
       charges.
      The Office of Administrative Law Judges is the office in which judges appointed by the
       Authority conduct administrative hearings and issue recommended decisions in cases
       involving alleged ULPs and issue decisions involving applications for attorney fees under the
       Back Pay Act or the Equal Access to Justice Act.
      The Authority is a quasi-judicial body (with three full-time Members --one of which serves as
       the FLRA Chairman-- appointed by the President and confirmed by the Senate), that resolves
       appeals in ULP and REP cases and adjudicates exceptions to ARB awards and NEG appeals.
      The Federal Service Impasses Panel, which consists of up to seven part-time members
       appointed by the President (without Senate confirmation), resolves impasses between Federal
       agencies and unions representing Federal employees under the Statute and the Federal
       Employees Flexible and Compressed Work Schedules Act.
      The FLRA also provides full staff support to two other entities: the Foreign Service Impasse
       Disputes Panel and the Foreign Service Labor Relations Board (FSLRB).



                                                                    October 1, 2012 – March 31, 2013
                                                                          49th Semiannual Report to Congress | 3



The Chairman is the head of the Agency and also serves as FLRA’s Chief Executive and
Administrative Officer, overseeing all agency-wide administrative functions.
In carrying out statutory responsibilities, the Chairman oversees the following offices:
   The Office of the Executive Director, which provides agency-wide operational support through
    the following divisions: Budget and Finance, Administrative Services, and Information
    Resources Management.
   The Office of the Solicitor, which represents the agency in court proceedings before all United
    States Courts and provides the Chairman legal advice on various legal issues.
   The Office of Human Resources, which is responsible for providing agency-wide Human
    Resource services, and leading human capital management efforts pursuant to the FLRA
    Strategic Plan.


                                      FLRA ORGANIZATION CHART

                                                      AUTHORITY
                                                    CHAIRMAN AND
                                                   CHIEF EXECUTIVE
                                                       OFFICER




      FOREIGN
      SERVICE            FOREIGN         FEDERAL
                                                                       OFFICE OF             AUTHORITY
       LABOR             SERVICE         SERVICE                                                                       GENERAL
                                                                      INSPECTOR               MEMBERS
     RELATIONS           IMPASSE        IMPASSES                                                                       COUNSEL
                                                                       GENERAL                   (2)
       BOARD         DISPUTES PANEL       PANEL




                                                                                           CHIEF COUNSELS
                                                                                                                   REGIONAL
                                                                                            (ONE TO EACH
                                                                                                                    OFFICES
                                                                                              MEMBER)
                                                                                                                      (7)
                                                                                               & STAFF




        EQUAL                                                                                                    COLLABORATION
                      OFFICE OF THE    OFFICE OF THE                                                                  AND
     EMPLOYMENT                                                      OFFICE OF THE         CHIEF COUNSEL
                       EXECUTIVE      ADMINISTRATIVE                                                              ALTERNATIVE
     OPPORTUNITY                                                      SOLICITOR           TO THE CHAIRMAN
                        DIRECTOR        LAW JUDGES                                                                  DISPUTE
      PROGRAM
                                                                                                                  RESOLUTION
                                                                                                                   PROGRAM




                                       INFORMATION                                                       CASE INTAKE
    ADMINISTRATIVE     BUDGET AND                                                      HUMAN
                                        RESOURCES                                                            AND
      SERVICES           FINANCE                                                     RESOURCES
                                       MANAGEMENT                                                        PUBLICATION
       DIVISION          DIVISION                                                     DIVISION
                                          DIVISION                                                         DIVISION




                                                                                     October 1, 2012 – March 31, 2013
                                                           49th Semiannual Report to Congress | 4




Office of Inspector General
The Inspector General Act of 1978, as amended (hereafter referred to as the IG Act), requires the FLRA
and other small agencies to establish an OIG. FLRA is a designated Federal entity under the IG Act of
1978, as amended. The Dodd-Frank Wall Street Reform and Consumer Protection Act (P.L. 111-203)
altered the relationship of the designated Federal entity Offices of Inspectors General with the agency
head by establishing that the term “head of the designated Federal entity” for FLRA “means the
members of the Authority.” In accordance with the Dodd-Frank Act, we submit this report to the
Chairman and Authority Members.

The FLRA OIG is responsible for:

       (1) conducting and supervising audits and investigations relating to FLRA programs and
           operations;
       (2) reviewing legislation;
       (3) recommending policies designed to promote economy, efficiency, and effectiveness of the
           establishment; and
       (4) keeping the Chairman, Authority Members, and Congress fully and currently informed
           about problems and deficiencies, as well as the necessity for corrective actions.
To aid the OIG in accomplishing its mission, the OIG was provided an administrative assistant.

                                        OIG ORGANIZATION CHART



                                              INSPECTOR
                                               GENERAL




                                                               OPERATIONAL SUPPORT
                       ADMINISTRATIVE                          - COUNSEL TO THE IG
                         ASSISTANT
                                                               -   CONTRACTOR




                                                                    October 1, 2012 – March 31, 2013
                                                           49th Semiannual Report to Congress | 5




Office of Inspector General Activities
Audits and Evaluations
In accordance with the IG Act, the FLRA OIG conducts, supervises and coordinates audits and
evaluations relating to the programs and operations of the FLRA.

Completed Audits and Evaluations
  Financial Statement Audit of the Federal Labor Relations Authority for Fiscal Year 2012
  (AR-13-01)
       The Accountability of Tax Dollars Act of 2002 Public Law 107-289 requires the FLRA OIG or an
       independent external auditor, as determined by the IG, to prepare and submit to Congress and
       the Director of the Office of Management and Budget, audited financial statements.

       Under a contract monitored by the OIG, Dembo, Jones, Healy, Pennington & Marshall, P.C.
       (DJHPM) an independent certified public accounting firm, performed an audit of the financial
       statements of FLRA as of September 30, 2012, and the related statements of net cost and
       changes in net position, and the statements of budgetary resources. DJHPM expressed an
       unqualified opinion on FLRA’s financial statements and reported that they presented fairly, in
       all material respects, the financial position of FLRA as of September 30, 2012.

       DJHPM was not contracted for and did not provide an opinion on the effectiveness of FLRA’s
       internal controls. However, DJHPM did state that they did not identify any deficiencies in
       internal controls over financial reporting that were considered to be material weaknesses or
       significant deficiencies.

  MANAGEMENT LETTER FOR FISCAL YEAR 2012 AUDIT OF THE FEDERAL LABOR RELATIONS
  AUTHORITY FINANCIAL STATEMENTS (AR-13-02)
       DJHPM, under contract with the OIG, audited FLRA’s balance sheet as of September 30, 2012.
       DJHPM also examined FLRA’s internal controls over financial reporting and identified other
       operational matters, which resulted in a total of three financial management comment
       observations that did not reach the level required to be reported as significant deficiencies or
       material weaknesses in our Financial Statement Audit Report of the FLRA for FY 2012.

  EVALUATION OF THE FEDERAL LABOR RELATIONS AUTHORITY COMPLIANCE WITH THE
  FEDERAL INFORMATION SECURITY MANAGEMENT ACT FISCAL YEAR 2012 (ER-13-01)
       The E-Government Act of 2002 (P.L. 107-347), commonly referred to as FISMA, requires
       Federal agencies to develop, document, and implement an agency-wide information security
       program that provides security for the information and information systems that support the


                                                                  October 1, 2012 – March 31, 2013
                                                           49th Semiannual Report to Congress | 6



      operations and assets of the agency. FISMA assigns specific responsibilities to agency heads
      and IGs.

      FISMA requires agencies to have an annual independent evaluation performed on their
      information security programs and practices and to report the evaluation results to OMB.
      FISMA states that the independent evaluation is to be performed by the agency IG or an
      independent external auditor as determined by the IG.

      DJHPM, on behalf of the OIG, conducted an independent evaluation of FLRA’s compliance
      with FISMA for FY 2012 using guidelines established by FISMA, OMB, and the National
      Institute of Standards and Technology. A report was issued November 15, 2012. During the FY
      2012 FISMA evaluation DJHPM performed a test on controls and a Vulnerability Assessment
      on the FLRA network. This year’s testing resulted in no new findings and 10 recommendations.

      The report also includes a follow up of 12 prior year issues. Each of those issues has many
      elements that make up each finding. If any one of the elements is open, then that issue
      remains open. Seven issues remain open.

  Federal Labor Relations Authority’s Compliance with the Improper Payments Elimination
  and Recovery Act of 2010 in the Fiscal Year 2012 Performance and Accountability Report
  (ER-13-02)
      The OIG made a determination that FLRA is compliant with applicable provisions of the
      Improper Payments Elimination and Recovery Act of 2010, in accordance with Sec.3(b) of
      Public Law 111-204, Improper Payments Elimination and Recovery Act of 2010.

  Management and Performance Challenges
      The Reports Consolidation Act of 2000, Public Law 106-531, requires the IG to provide the
      agency head with a statement that summarizes the most serious management and
      performance challenges facing the agency and briefly assesses the agency’s progress in
      addressing those challenges. On October 12, 2012, we provided the Chairman and Members
      the most serious management and performance challenges facing the FLRA along with a brief
      assessment of management’s progress in addressing them. These ongoing challenges
      included: resource shortages; information technology security; and proper handling of records.
      The agency has made substantial progress in addressing these challenges.

Planned Audits and Evaluations
   The OIG plans to initiate the following audit and evaluations during the second half of FY 2013:

      (1) Financial Statement Audit of the Federal Labor Relations Authority for Fiscal Year 2013
          (AR-14-01); and

                                                                  October 1, 2012 – March 31, 2013
                                                            49th Semiannual Report to Congress | 7



       (2) Evaluation of the Federal Labor Relations Authority’s Compliance with the Federal
           Information Security Management Act Fiscal Year 2013 (ER-14-01)

Investigations
The FLRA OIG receives and investigates allegations of fraud, waste, abuse and misconduct within
FLRA programs and operations. The FLRA OIG investigations can give rise to administrative, civil and
criminal penalties. Based on investigations conducted, the FLRA IG issues a report that sets forth the
allegations and an objective description of the facts to FLRA management regarding administrative
and civil matters. Investigations which uncover potential criminal activity are referred to the
Department of Justice. As of the end of the semiannual reporting period, the OIG had no open
investigations.

OIG Hotline
In order to facilitate reporting of allegations, FLRA OIG maintains a hotline (see “Contacting the Office
of Inspector General”). Callers who have general questions or concerns that do not fall within the
OIG’s jurisdiction are referred to other entities, such as other FLRA offices, Federal agencies and local
or state governments.

During the reporting period, we received 50 hotline complaints. These hotline complaints were
received via the following methods: 8 telephone call, 41 email or internet/intranet responses, and 1
anonymous letters/contact. Additionally, the OIG resolved 36 of the complaints, referred 5 to other
OIGs, and forwarded 9 to other FLRA offices.

                COMPLAINT METHOD                                   HOTLINE DISPOSITION
                   Complaint Method                                   Complaint Method
                             2.0%
                                    16.0%                              18.0%



                                                                    10.0%


                                                                                      72.0%
                     82.0%

              HOTLINE TELEPHONE CALLS                              RESOLVED BY FLRA OIG
              HOTLINE EMAILS OR INTERNET/INTRANET                  REFERRED TO OTHER OIG
              RESPONSES
              ANONYMOUS LETTERS/CONTACT                            FORWARDED TO OTHER FLRA OFFICE




                                                                   October 1, 2012 – March 31, 2013
                                                           49th Semiannual Report to Congress | 8



Other Activities
Peer Review
Offices of Inspectors General performing audits are required to perform (and undergo) reviews of
other OIG offices on a 3-year cycle. Peer reviews are conducted of an OIG audit organization’s system
of quality control in accordance with the Council of Inspectors General on Integrity and Efficiency
(CIGIE) Guide for Conducting External Peer Reviews of the Audit Organizations of Federal Offices of
Inspector General, based on requirements in the Government Auditing Standards (Yellow Book).
Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail.

Section 989C of the Dodd-Frank Wall Street and Consumer Protection Act of 2010 contains additional
semiannual reporting requirements pertaining to peer review reports. Federal Inspectors General are
required to engage in peer review processes related to audit operations. In keeping with Section
989C, our office is reporting the following information related to its peer review activities. These
activities cover our role as both the reviewed, and the reviewing OIG.

Peer Review Planned on FLRA OIG Audit Operations
The FLRA OIG is not currently scheduled for a peer review. The next peer review to be conducted on
the FLRA’s OIG system of quality control is projected for FY 2014.

Peer Review to be Conducted by FLRA OIG on Other Audit Operations
The FLRA OIG is not currently scheduled to perform a peer review on other audit operations. The next
peer review to be conducted on other audit operations system of quality control is projected for FY
2014.

Memorandum of Understanding
In accordance with Section 6 of the Inspector General Reform Act of 2008, each Inspector General
shall have his or her own (not reporting to agency management) legal counsel, or obtain the services
of a counsel appointed by and directly reporting to another Inspector General or CIGIE on a
reimbursable basis. The OIG signed a Memorandum of Understanding (MOU) with the Department of
Treasury OIG to provide legal services on a fiscal-year basis.

The FLRA OIG signed a MOU with the Federal Maritime Commission (FMC), accepting an
appointment by the FMC to serve as Interim IG for 90 days which ends April 19, 2013. During the
interim period, the FLRA IG will continue to perform the duties of both the FLRA IG as well as the FMC
Interim IG.




                                                                  October 1, 2012 – March 31, 2013
                                                           49th Semiannual Report to Congress | 9



Regulatory Review
Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the OIG to review existing
and proposed legislation and regulations relating to FLRA programs and operations of FLRA. During
this reporting period the OIG did not review any legislation and regulations relating to FLRA.

Liaison Activities
The IG is a member of the CIGIE, which was established on October 14, 2008, pursuant to the
Inspector General Reform Act of 2008. Additionally, the FLRA IG is a member of the Inspection and
Evaluation Committee.




                                                                  October 1, 2012 – March 31, 2013
                                                                  49th Semiannual Report to Congress | 10




Reporting Requirements of the Inspector
General Act of 1978, as Amended
The reporting requirements of the Inspector General Act of 1978, as amended, are listed in the
following table along with the location of the required information. The word “None” appears where
there is no data to report under a particular requirement.

    REFERENCE          REPORTING REQUIREMENT                                                    PAGE
    Section4(a)(2)     Review of legislation and regulations                                    p.12
                       Significant problems, abuses, and deficiencies relating to the
    Section 5(a)(1)                                                                             None
                       administration of programs and operations
                       Recommendations with respect to significant problems, abuses or
    Section 5(a)(2)                                                                             None
                       deficiencies
                       Recommendations included in previous semiannual reports on which
    Section 5(a)(3)                                                                             p.15
                       corrective action has not been completed (TABLE I)
    Section 5(a)(4)    Matters referred to prosecutive authorities                              None
    Section 5(a)(5)    Summary of reports                                                       None
    Section 5(a)(6)    Listing by subject of audit reports issued (TABLE II)                    p.16
    Section 5(a)(7)    Summary of significant reports                                           None
    Section 5(a)(8)    Statistical table – Reports with questioned costs (TABLE III)            p.17
                       Statistical table – Recommendations that funds be put to better use
    Section 5(a)(9)                                                                             p.18
                       (TABLE IV)
                       Summary of each audit report, inspection report, and evaluation report
    Section 5(a)(10)                                                                            None
                       without management decisions
    Section 5(a)(11)   Description and explanation of revised management decision               None
    Section 5(a)(12)   Management decision with which the IG is in disagreement                 None
                       Information under section 05(b) of the Federal Financial Management
    Section 5(a)(13)                                                                            None
                       Improvement Act (FFMIA) of 1996 1
    Section 5(a)(14)   Peer Review Activity                                                     p.11




1
FLRA is not subject to the requirements of the FFMIA.


                                                                           October 1, 2012 – March 31, 2013
                                                         49th Semiannual Report to Congress | 11




First Half of FY 2013 Freedom of Information
Act Requests

FOIA ACTIVITY                                                                             TOTAL
Number of Freedom of Information Act (FOIA) Requests Received                             2
Number of FOIA Requests Processed                                                         2
Number Granted
Number Partially Granted                                                                  1
Number Not Granted                                                                        1
Reasons for Denial
No Records Available                                                                      1
Referred to Other Agencies
Requests Denied in Full Exemption 3
Requests Denied in Full Exemption 5
Requests Denied in Full Exemption 7(A)
Requests Denied in Full Exemption 7(C)                                                    1
Request Withdrawn
Not a Proper FOIA Request
Not an Agency Record
Duplicate Request
Other
Requests for OIG Reports from Congress and Other Government Agencies
Received
Processed
Number of OIG Reports/Documents Released in Response to Requests                          4




                                                                   October 1, 2012 – March 31, 2013
                                                49th Semiannual Report to Congress | 12




TABLE I – Summary of Audit Reports with
Corrective Actions Outstanding for More Than
1 Year

                                                               RECOMMENDATION
    REPORT TITLE          REPORT NUMBER   ISSUE DATE    NUMBER     CLOSE     OPEN
Report on Evaluation of     FY09FISMA       07/09         16         12         4
FLRA’s FISMA
Compliance
Evaluation of the FLRA       ER-12-01        11/11         7         4          3
Compliance with the
FISMA




                                                       October 1, 2012 – March 31, 2013
                                                        49th Semiannual Report to Congress | 13




TABLE II – Listing of Audit Reports Issued

                                                                                  FUNDS PUT
REPORT       ISSUE                                  QUESTIONED   UNSUPPORTED      TO BETTER
NUMBER       DATE           REPORT TITLE               COST         COST             USE
                        Financial Statement
                        Audit of the Federal
AR-13-01   11/15/2012   Labor Relations                 $0             $0              $0
                        Authority for Fiscal Year
                        2012
                        Management Letter for
                        Fiscal year 2012 Audit of
AR-13-02   11/30/2012   the Federal Labor               $0             $0              $0
                        Relations Authority
                        Financial Statements
                        Evaluation of the Federal
                        Labor Relations
                        Authority Compliance
ER-13-01   11/15/2012   with the Federal                $0             $0              $0
                        Information Security
                        Management Act Fiscal
                        Year 2012
                        Federal Labor Relations
                        Authority Compliance
ER-13-02   1/14/2013    with the Improper               $0             $0              $0
                        Payments Elimination
                        and Recovery Act of 2010




                                                              October 1, 2012 – March 31, 2013
                                                     49th Semiannual Report to Congress | 14




TABLE III – Reports with Questioned Costs

                                         NUMBER OF         QUESTIONED       UNSUPPORTED
                                          REPORTS             COST              COST
  A. For which no management
     decision has been made by the
                                             0                  $0                $0
     commencement of the
     reporting period.
  B. Which were issued during the
                                             0                  $0                $0
     reporting period.
                     Subtotals (A + B)       0                  $0                $0
  C. For which a management
     decision was made during the            0                  $0                $0
     reporting period.
    i.    Dollar value of disallowed
                                             0                  $0                $0
          costs; and
    ii.   Dollar value of costs not
                                             0                  $0                $0
          disallowed.
  D. For which no management
     decision has been made by the           0                  $0                $0
     end of the reporting period.
  E. Reports for which no
     management decision was
                                             0                  $0                $0
     made within 6 months of
     issuance.




                                                           October 1, 2012 – March 31, 2013
                                                         49th Semiannual Report to Congress | 15




TABLE IV – Recommendations that Funds Be
Put to Better Use

                                                                NUMBER OF       UNSUPPORTED
                                                                 REPORTS            COST
 A. For which no management decision has been made by
                                                                     0                $0
    the commencement of the reporting period.
 B. Which were issued during the reporting period.                   0                $0
                                           Subtotals (A + B)         0                $0
 C. For which a management decision was made during the
                                                                     0                $0
    reporting period.
   i.    Dollar value of recommendations that were agreed
                                                                     0                $0
         to by management; and
   ii.   Dollar value of recommendations that were not
                                                                     0                $0
         agreed to by management.
 D. For which no management decision has been made by
                                                                     0                $0
    the end of the reporting period.
 E. Reports for which no management decision was made
                                                                     0                $0
    within 6 months of issuance.




                                                               October 1, 2012 – March 31, 2013
                                                 49th Semiannual Report to Congress | 16




APPENDIX A - Acronyms and Abbreviations

ACCRONYM
ABBREVIATION   DEFINITION
ARB            Arbitration (type of FLRA case)
CIGIE          Council of Inspectors General on Integrity and Efficiency
DJHPM          Dembo, Jones, Healy, Pennington & Marshall, P.C.
FFMIA          Federal Financial Management Improvement Act
FISMA          Federal Information Security Management Act of 2002
FLRA           Federal Labor Relations Authority
FOIA           Freedom of Information Act
FSLRB          Foreign Service Labor Relations Board
FY             Fiscal Year
IG             Inspector General
NEG            Negotiability (Type of FLRA case)
OGC            Office of the General Counsel
OIG            Office of Inspector General
OMB            Office of Management and Budget
P.L.           Public Law
REP            Representation (Type of FLRA Case)
STATUTE        Federal Service Labor-Management Relations Statute
ULP            Unfair Labor Practice (Type of FLRA case)




                                                        October 1, 2012 – March 31, 2013
                                                         49th Semiannual Report to Congress | 17




APPENDIX B - Definitions of Terms Used

TERM                     DEFINITION
Disallowed Cost          A questioned cost that management, in a management decision, has sustained
                         or agreed should not be charged to the Government.
Final Action             The completion of all actions that management has concluded, in its
                         management decision, are necessary with respect to the findings and
                         recommendations. If management concluded that no actions were necessary,
                         final action occurs when management decision is issued.
Management Decision      An evaluation by management of the findings and recommendations included
                         in an audit report and the issuance of a final decision by management
                         concerning its response to such findings and recommendations, including
                         actions concluded to be necessary.
Questioned Cost          A cost questioned because of: (a) an alleged violation of a law, regulation,
                         contract, or other agreement or document governing the expenditures of funds;
                         (b) a finding that, at the time of the audit, such cost is not supported by
                         adequate documentation; or (c) a finding that the expenditure of funds for the
                         intended purpose is unnecessary or unreasonable.
Recommendation That      A recommendation that funds could be used more efficiently if management
Funds Be Put To Better   took actions to complete the recommendation, including: (a) reduction in
Use                      outlays; (b) deobligation of funds; (c) costs not incurred by implementing
                         recommended improvements related to the operations of the establishment, a
                         contractor; (d) avoidance of unnecessary expenditures noted in preaward
                         reviews of contract; or (e) any other savings which are specifically identified.
Unsupported Cost         A cost questioned because, at the time of the audit, such cost is not supported
                         by adequate documentation.




                                                                  October 1, 2012 – March 31, 2013
                 Federal Labor Relations Authority
                 OFFICE OF INSPECTOR GENERAL

Contacting the Office of the Inspector General

If you believe an activity is wasteful, fraudulent, or abusive of Federal funds,
contact us via:


  Hotline @ (800)331-3572


        Online Hotline @ FLRA.gov/oig-hotline


              Email @ oigmail@flra.gov


                    Fax @ (202)343-1072

                          or Write @ 1400 K Street N.W., Suite 250,
                          Washington, DC 20424


The complainant may remain confidential; allow their name to be used; or anonymous. If the
complainant chooses to remain anonymous, FLRA OIG cannot obtain additional information on the
allegation, and also cannot inform the complainant as to what action FLRA OIG has taken on the
complaint. Confidential status allows further communication between FLRA OIG and the complainant
after the original complaint is received. The identity of complainants is protected under the provisions
of the Whistleblower Protection Act of 1989 and the Inspector General Act of 1978. To learn more
about the FLRA OIG, visit our Website at http://flra.gov/oig
